Audit of Awarding and Monitoring of Grants by the
Inter-American Foundation

Audit Report Number 9-IAF-03-006-P

February 28, 2003




                    Washington, D.C.
February 28, 2003


MEMORANDUM
FOR:           IAF President, David W. Valenzuela

FROM:          IG/A/PA Director, Dianne L. Rawl /s/

SUBJECT:       Audit of Awarding and Monitoring of Grants by the Inter-
               American Foundation (Report No. 9-IAF-03-006-P)

This memorandum is our final report on the subject audit. In finalizing the
report, we considered your comments on our draft report and have included
this response as Appendix II.

This report includes four recommendations to improve the Inter-American
Foundation’s audit management system. In your written comments, you
concurred with these recommendations and identified planned or undertaken
actions to address our concerns. Consequently, we consider all
recommendations to have received a management decision. The Foundation’s
audit committee must determine final action on these recommendations, and
we request to be notified of the committee’s actions.

I want to express my sincere appreciation for the cooperation and courtesies
extended to my staff during the audit.




                                                                               1
    Page intentionally left blank




2
Table of
           Summary of Results                                               5
Contents
           Background                                                       5

           Audit Objectives                                                 6

           Audit Findings:                                                  7

                  Did the Inter-American Foundation award grants in
                  accordance with Foundation policies and procedures?       7

                  Did the Inter-American Foundation implement a
                  system to monitor grantee projects and project results?   11

                  Did the Inter-American Foundation implement a
                  system to audit funds provided to grantees?               15

                         The Foundation Needs an Audit Universe
                         Database and an Annual Audit Schedule              16

                         The Foundation Needs to Formalize Procedures
                         for Audit Recommendation Follow-Up                 18

                         The Foundation Needs to Establish Procedures
                         for Its Audit Quality Control Program              21

                         Other Matters                                      22

           Management Comments and Our Evaluation                           23

           Appendix I - Scope and Methodology                               25

           Appendix II - Management Comments                                29




                                                                                 3
    Page intentionally left blank




4
Summary of   This audit was conducted to review the process used by the Inter-American
Results      Foundation (the Foundation) for selecting proposals for funding in fiscal year
             2001 and to assess the systems the Foundation had in place to monitor
             selected grantee projects and project results, and audit funds provided to
             selected grantees. Our audit showed the following:

                •   For the two countries (Mexico and Peru) selected for review, the
                    Foundation awarded grants in accordance with its policies and
                    procedures (see page 7).

                •   For those grants sampled in four countries (El Salvador, Mexico,
                    Nicaragua, and Peru) the Foundation implemented a system to monitor
                    grantee projects and project results (see page 11).

                •   The Foundation instituted many aspects of a good audit management
                    system. However, the Foundation needed to develop an audit universe
                    and an annual audit schedule; formalize procedures for audit
                    recommendation follow-up; and establish procedures for its quality
                    control program (see page 15). We recommended that the Foundation
                    establish a complete audit universe database and use the database to
                    develop a centralized annual audit schedule to make sure that audits
                    are conducted in a timely manner (see page 18). Also, we
                    recommended that the Foundation establish written policies and
                    procedures to implement an audit recommendation tracking system for
                    audits performed by accounting firms under contract to the Foundation
                    and to make sure that the system complied with the requirements of
                    Office of Management and Budget (OMB) Circular A-50 (see page
                    20); an audit quality control program that complied with OMB
                    Circular A-50 and General Accounting Office guidelines (see page
                    22); and an audit recommendation follow-up system in accordance
                    with OMB Circular A-50 for those audits conducted by the General
                    Accounting Office and USAID Office of Inspector General (OIG) (see
                    page 22).

                    Foundation management concurred with all four audit
                    recommendations and described actions the Foundation has planned or
                    undertaken to implement the recommendations (see page 23).




Background   The Inter-American Foundation (the Foundation) is an independent agency of
             the United States Government created in 1969 as an experimental U.S. foreign
             assistance program. The mission of the Foundation is to promote sustainable



                                                                                              5
                   grassroots development throughout Latin America and the Caribbean by
Summary of         providing cash grants to help community and nonprofit organizations
Results            implement their own creative ideas for development and poverty reduction.
                   The average dollar value of active grants is approximately $261,000.

                   The Foundation’s headquarters and all its U.S.−direct hire employees are
                   located in Arlington, Virginia. To compensate for the lack of an overseas
                   presence, the Foundation has contracted the services of foreign citizens to
                   provide oversight of and assistance to its grantees. The Foundation also
                   contracts with overseas independent accounting firms to obtain audit services.

                   The management of the Foundation is vested in a nine-person Board of Directors
                   appointed by the President of the United States. Six Board members are drawn
                   from the private sector and three from among officers or employees of agencies
                   of the U.S. Government concerned with inter-American activities. As of August
                   6, 2002, three private sector positions on the Board were filled, and three were
                   vacant. The three public sector members had been nominated by the President
                   and were awaiting Senate confirmation. The Board appoints the Foundation’s
                   president, who acts as the chief executive officer.

                   The Foundation receives the majority of its funding through an annual
                   appropriation. Congress appropriated $12 million for the Foundation in fiscal
                   year (FY) 2001 and about $13 million for FY 2002. The Foundation also
                   receives funds provided from the Social Progress Trust Fund administered by the
                   Inter-American Development Bank, consisting of payments on U.S. Government
                   loans extended under the Alliance for Progress to various Latin American and
                   Caribbean governments. As of August 6, 2002, the Social Progress Trust Fund
                   had a balance of $5 million, most of which was obligated in FY 2002 for grants.

                   Since 1972, the Foundation has made about 4,400 grants totaling approximately
                   $541 million to approximately 3,000 organizations. As of August 2002, the
                   Foundation had 205 active grants totaling about $53 million.



Audit Objectives   In November 1999, Public Law 106-113 amended the responsibilities of
                   USAID’s Office of Inspector General (OIG), under Section 8A(a) of the
                   Inspector General Act of 1978, to include audit responsibility for the Inter-
                   American Foundation. In line with this responsibility, this audit is one of a
                   series undertaken by the OIG’s Performance Audits Division and was designed
                   to answer the following audit objectives for a representative sample of grants
                   selected:

                   Did the Inter-American Foundation award grants in accordance with
                   Foundation policies and procedures?



 6
                 Did the Inter-American Foundation implement a system to monitor grantee
                 projects and project results?

                 Did the Inter-American Foundation implement a system to audit funds
                 provided to grantees?

                 Appendix I contains a complete discussion of the scope and methodology for the
                 audit.



Audit Findings   Did the Inter-American Foundation award grants in accordance with
                 Foundation policies and procedures?

                 For the two countries (Mexico and Peru) selected for review, the Foundation
                 awarded grants in accordance with its policies and procedures. Nothing came
                 to the auditors’ attention to suggest that the Foundation followed different
                 procedures in awarding grants in other countries.

                 The mission of the Foundation is to promote sustainable grassroots
                 development throughout Latin America and the Caribbean. To that end, the
                 Foundation provides cash grants to help community and nonprofit
                 organizations in Latin America and the Caribbean implement their own
                 creative ideas for development and poverty reduction. The Foundation
                 believes that the best ideas for social and economic development come from
                 people determined to improve the conditions of their lives and build a better
                 future for their children.

                 Partnerships are also a centerpiece of the Foundation’s approach to development
                 in Latin America and the Caribbean. The Foundation believes the formation of
                 partnerships among the public sector, non-governmental organizations and the
                 private sector enhances sustainable development. Consequently, the
                 Foundation’s efforts focus on providing support to a variety of social investment
                 partnership projects throughout the region.

                 The Foundation considers proposals that meet the following criteria:

                    •   Offer innovative solutions to development problems among
                        populations generally beyond the reach of traditional foreign
                        assistance agencies.

                    •   Demonstrate substantial beneficiary participation in project design and
                        project management.




                                                                                                 7
           •   Generate practical benefits for the poor in ways that increase the
               capacity of poor people for self-help.

           •   Strengthen the capacity of poor people’s organizations, are technically
               feasible, and have the potential for eventual self-sustainability.

           •   Provide counterpart contributions from the proponent organization,
               and, ideally, from other local supporters.

        Also, the Foundation gives preference to awarding grants to organizations
        that have not recently received direct funding from U.S. Government
        agencies and to applications that demonstrate a strategy for forming
        development partnerships with private and public sector institutions.

        The following two grants in Peru and Nicaragua, awarded prior to the period
        covered by this audit, illustrate mature grants awarded by the Foundation
        based on the criteria discussed above.

           •   On June 11, 1999, the Foundation approved a grant of $216,700 to the
               Instituto Promoción y Desarrollo Agrario (IPDA), a small non-profit,
               non-governmental development organization in Peru founded in 1991
               to provide technical training. Under the grant, IPDA provided training
               and supplies to help families in the outskirts of Lima to cultivate
               unused wasteland, grow crops, breed small animals for food, and sell
               agricultural products. Foundation funds were used to (1) pay the
               salaries of the staff and consultants who provided the training; (2)
               purchase equipment, including one vehicle and a computer; (3) buy
               supplies, including irrigation tubing, seeds, fertilizer, and tools; and (4)
               pay a share of the administrative costs. Foundation records show that
               the project resulted in the establishment of over 100,000 hectares1 of
               gardens for over 1,000 poor beneficiaries by 13 organizations,
               including an orphanage with over 100 children.




    1
        One hectare is 10,000 square meters or about 2 1/2 acres.



8
    Photograph of OIG auditor with two children taken on the
    grounds of the orphanage that was part of the project.

•   On September 29, 1997, the Foundation approved a grant totaling
    $330,000 to the Proyecto Aldea Global−Jinotega (PAGJINO), a non-
    profit rural development organization in Nicaragua founded in 1992.
    Amendments to the grant agreement extended the project from three
    years to seven years and increased the total funding to $886,944.
    PAGJINO provides training, technical assistance, loans, and supplies
    to small-scale farmers to enable them to implement sustainable
    agricultural practices. Foundation funds were to be used to support
    training activities, pay salaries of field staff, purchase motorcycles, and
    pay a share of the administrative costs. The Foundation also
    contributed about $107,600 to PAGJINO to establish and administer a
    loan fund to provide approximately 950 loans, ranging from $75 to
    $3,200, to small-scale farmers.




                                                                             9
                Photograph of a beneficiary showing auditors how
                training on erosion control has benefited her garden.

     The Foundation maintains a Program Office Operations Guide (Operations
     Guide) that sets forth its policies, procedures and responsibilities for grant
     management and monitoring. The initial phase of grant management begins
     with the Foundation’s invitation to prospective grantees to submit proposals
     via its Internet web page. The Operations Guide also sets forth the following
     procedures to be followed in awarding grants:

         •   Visit by Foundation staff to potential grantee organizations before the
             Foundation awards its grants.

         •   Reviews of grant proposals by Foundation staff and senior officers.

         •   Contact with cognizant U.S. embassies regarding the suitability of the
             grant applicant to receive a grant and the compatibility of the
             proposed activities with U.S. foreign policy interests.

         •   Notifications of approved grants by the President of the Foundation to
             the Board of Directors and Congressional oversight committees, such
             as the Foreign Operations Subcommittee of the House Appropriations
             Committee and the Western Hemisphere Subcommittee of the House
             International Relations Committee.

         •   Notifications of approved grants to the cognizant U.S. ambassadors
             and the beneficiary country’s ambassadors in the United States.




10
To determine whether the Foundation followed these procedures, we reviewed
nine grants awarded to organizations in Mexico and Peru in FY 2001. Based on
trip reports, faxes, and other documentation, we confirmed that Foundation
officials followed all of the above procedures in awarding grants in these two
countries. For example, Foundation officials made site visits to grant applicants
in both these countries to discuss their proposals. They also provided the U.S.
embassies with pertinent information on the proposed projects and sent the
appropriate notifications as required by the Foundation’s procedures.


Did the Inter-American Foundation implement a system to monitor grantee
projects and project results?

For those grants sampled in four countries (El Salvador, Mexico, Nicaragua,
and Peru) the Inter-American Foundation implemented a system to monitor
grantee projects and project results. Nothing came to the auditors’ attention to
suggest that the Foundation had not implemented equivalent systems to
monitor grantee projects and project results in other countries where it had
funded grant activities.

Grant monitoring consisted of those activities taken by the Foundation to track
grant progress, including the use of resources and compliance with provisions
of the grant. Monitoring also included implementing corrective actions when
necessary and facilitating the gathering of results and lessons learned.

The Foundation’s Operations Guide described a range of monitoring activities
including: (1) verification visits, (2) review of progress reports, (3) close
communication with grantees, (4) data verification, and (5) audits. The
Operations Guide delegated these responsibilities as follows:

   •   The Foundation’s Office of Programs, with a staff of 11 Washington-
       based representatives, had primary responsibility for monitoring
       grantee performance in the 17 countries where the Foundation had
       ongoing grant activities. This office’s principal monitoring
       instruments consisted of annual field visits and reviews of grantee
       reports by the representatives. Nine local national “liaisons,”
       contracted by the Foundation to monitor grantee performance and
       recommend technical assistance or training, as appropriate, assisted the
       Foundation’s representatives.

Foundation Representatives

The 11 Foundation representatives were the principal officers responsible for
monitoring the progress of 232 active grants in 17 countries, as of March
2002. Representatives were required by the Foundation’s Operations Guide to



                                                                               11
     visit each grantee in their portfolio at least once a year. Files for the 14
     grantees reviewed during this audit contained trip reports that showed
     representatives had made their required annual visits. The grantees also
     provided testimonial evidence that the Foundation representatives had made
     the required site visits. In addition to the representative’s visit, available
     evidence showed that other Foundation officials, including the Foundation’s
     President, had also visited the grantees.

     The Operations Guide also required Foundation representatives to authorize
     grant disbursements following careful analysis and review of all pertinent
     reports. Such reports should include financial, programmatic, and, if
     applicable, grant/loan fund and audit reports.2 The Foundation representative
     signs the disbursement request that certifies that the reports are correct. For
     the 14 grants sampled, Foundation representatives made the required
     certifications. Financial, programmatic, grant/loan fund, and audit reports
     were also on file at the Foundation.

     Maintaining close communication with the grantee is one of the key activities
     listed in the Operations Guide for monitoring grants. Foundation
     representatives stated they maintained close communication through e-mail
     and telephone calls. Upon request, copies of recent e-mails of selected grants
     were provided. During our field visits, grantees and contractors also
     corroborated that the Foundation maintained close contact with grantees.

     Liaisons

     In nine countries, the Foundation hired local nationals under contract to serve
     as a link between Foundation representatives and grantees. The contracts
     between these individuals and the Foundation included costs for salaries,
     administrative expenses, and travel costs. At the time of the audit, liaisons
     resided in and offered technical assistance and support to grantees in 9 of the
     17 countries in which the Foundation operated. The Foundation planned to
     add more liaisons as its budget permitted. As a rule of thumb, there were
     liaisons in every country with at least 10 grants, except Mexico. As of August
     2002, the Foundation had two Foundation representatives monitoring grants in
     Mexico and was in the process of contracting for a liaison for that country.

     Liaisons act as the in−country “eyes and ears” of the Foundation
     representatives and provide technical assistance when problems develop. For
     example, the liaison in Peru explained that, when a grantee identified a need
     for technical assistance, the liaison suggested that the grantee contact certain
     organizations that could provide the needed expertise. When the needed

     2
      Representatives also needed to determine the status of any “pre-disbursement” conditions
     contained in the grant agreement before authorizing disbursements.



12
expertise was unavailable, the liaison obtained approval from the cognizant
Foundation representative to procure short-term expertise from a consultant.

The Operations Guide required liaisons to offer technical assistance and
support to grantees. The scope of work for the liaison in Peru, as an example,
listed several tasks that he was to accomplish. These included visiting active
projects to review progress, coordinating training, and providing technical
assistance for selected grantees. Specifically, the liaison was required to make
at least one monitoring visit per year to each project site and submit field visit
reports and monthly reports to his designated Foundation representative in
Washington.

The Foundation had liaisons in two of the four countries selected for
audit−Nicaragua and Peru−and grantee officials in both countries confirmed
that the liaisons had made the required field visits and provided support.
Foundation records also documented that, for the six projects visited by the
OIG auditors, the liaisons had conducted required monitoring visits and
submitted reports.

      •    The Foundation’s Office for Evaluation and Dissemination,3 with one
           staff member assigned to monitor grant results, was responsible for
           collecting, analyzing, and reporting performance results data submitted
           by the grantees. Fifteen local national “data verifiers,” contracted by
           the Foundation to determine the accuracy of performance results data
           reported by grantees, assisted this office.

Data Verifiers

The Foundation contracted 15 local nationals as data verifiers to verify six-
month performance results data reported by grantees. The contracts between
these individuals and the Foundation covered costs for services per visit and
travel costs. Data verifiers reported to an evaluation specialist in the
Foundation’s Office for Evaluation and Dissemination, an organizational
arrangement designed to separate the function of verifying and validating
results data from that of monitoring and helping grantees to achieve desired
results (a function assigned to the Office of Programs).

The Operations Guide stated that data verifiers could enhance the Foundation
representative’s monitoring efforts. The Foundation’s contract with its data
verifier in Mexico illustrated the type of work expected from these
individuals. This contract requires the data verifier to make at least three
visits to each grantee. During an orientation visit, the data verifier and grantee
are expected review indicators contained in the grant agreement and discuss

3
    Divided into two offices in August 2002.



                                                                                13
     the responsibility of the grantee to collect and report information on the
     indicators. The data verifier is then expected to visit the grantee every six
     months during the duration of the grant, review the grantee’s six-month
     program reports, and verify the accuracy of all performance data included in
     the reports by reviewing grantee documents, interviewing grantee officials and
     beneficiaries, and comparing data to prior period reports. The data verifier is
     required to submit a verification report on each grantee to the evaluation
     specialist in Washington. The data verifier is also expected to make a final
     visit to verify, clarify, and complete, if necessary, the grant results data
     presented by the grantee in its final grant results report.

     The evaluation specialist explained that he (1) received reports from data
     verifiers via e-mail, (2) reviewed the reports, (3) assessed the quality of the
     data verifiers’ work, and (4) made the programmatic data available to
     Foundation representatives as necessary for review and use in their
     certifications.




                  Photograph of data verifier based in Mexico explaining
                  her documentation and methodology to OIG auditors.

           •    The Foundation’s internal auditor4 and a recently hired assistant were
                responsible for managing the Foundation’s external audit program,
                which consisted of audits of Foundation grants conducted through
                contracts with independent accounting firms. The firms were required
                to follow the Foundation’s Audit Guidelines for Use by Independent
                Auditors in the Examination of Foundation Grants (Audit Guidelines).
                In addition, the contracts with accounting firms required that each

     4
         Reorganization changed title to Director of Audit, Budget & Finance in August 2002.



14
       grant be audited 6 months after the first disbursement of funds to the
       grantee, every 18 months thereafter, and at the completion of the grant.
       The Foundation’s audit program is discussed in the next section of this
       report.

In conclusion, based on 14 grants we sampled in four countries, the
Foundation implemented a system to monitor grantee projects and project
results.


Did the Inter-American Foundation implement a system to audit funds
provided to grantees?

The Inter-American Foundation implemented a system to audit funds
provided to grantees. However, the Foundation needed to further strengthen
its audit management program. Specifically, the Foundation needed to (1)
develop an audit universe and an annual audit schedule, (2) formalize
procedures for audit recommendation follow-up, and (3) establish procedures
for its quality control program.

The Foundation used audits as a management tool to improve the financial
accountability of its program. For example, the Foundation contracted with
independent accounting firms to schedule and conduct audits of its grants in
countries where it has activities. It also established a practice of contracting
for audits of all grants above $35,000. As discussed in further detail below,
the Foundation’s internal auditor also reviewed audit reports prepared by
accounting firms and summarized audit findings for Foundation
representatives’ information and action as necessary.

In 1999, the Foundation’s internal auditor revised the Foundation’s Audit
Guidelines, which the Foundation designed to guide the audit firms it
contracted to audit grantee funds. One of the provisions the internal auditor
added to the Guidelines was a requirement that audits be conducted in
accordance with generally accepted government auditing standards
established by the Comptroller General of the United States (Yellow Book).
In the year 2000, the Foundation’s contracting office at the U.S. Bureau of the
Public Debt negotiated new contracts with all independent audit firms,
requiring that audit work be done in accordance with these auditing standards.
Accordingly, each of the four contracts selected for review during this audit
contained a provision requiring that audits be conducted in accordance with
the Yellow Book. In addition, as part of the Foundation’s update of its audit
management program, the internal auditor also provided training on the
Yellow Book to the Foundation’s non-federal auditors.




                                                                                   15
     Although the Foundation had adopted appropriate audit standards, several
     improvements are needed to ensure that:

        •   All grants are audited at the times specified in grant agreements and
            contracts with independent accounting firms.

        •   Audit recommendations and responding corrective actions are tracked.

        •   All audits performed by independent accounting firms comply with
            generally accepted government auditing standards, the Foundation’s
            Audit Guidelines, and contract terms and conditions.

     Specifically, the Foundation needs to develop procedures for an audit
     management program that includes:

        •   A complete and accurate audit universe.

        •   Procedures to ensure that all audits are performed on schedule.

        •   Annual audit schedules to be provided to the Inspector General and the
            Foundation Audit Committee.

        •   A system for tracking all audit recommendations.

        •   Delegations of responsibility for acting upon audit recommendations.

        •   Semi-annual audit reports to be provided to the Inspector General and
            the Foundation Audit Committee.

        •   A quality control process for all audits conducted by independent
            accounting firms under contract to the Foundation.


     The Foundation Needs an Audit Universe
     Database and an Annual Audit Schedule

     Although the Foundation had a policy governing the frequency of audits by
     independent auditors, the Foundation did not have a complete audit universe
     or the capability to produce a centralized annual audit schedule to make sure
     audits were conducted in a timely manner. The primary reason was the
     Foundation relied on audit firms to develop audit-tracking systems and
     schedules−a decentralized system that made it administratively difficult for
     the Foundation to determine whether audits were conducted. As a result, the




16
Foundation did not have adequate assurance that its audits were being
performed at specific intervals called for in its contracts with audit firms.

As discussed above, the Foundation had taken an active role in using financial
audits of its grants as a management tool to improve financial accountability
of its program. Although the Foundation had a policy governing the
frequency at which financial audits of its grantees would be done, it had not
implemented a database (see details on page 20) that could be used to (1)
identify all grants that must be audited, (2) track completed audits and identify
any that were not done on time, and (3) track the status of any
recommendations made by the auditors.

An effective audit management system not only requires a policy that lays out
the frequency at which financial audits of grantees will be performed, but it
also requires a system for ensuring that required audits are conducted on time.
The Foundation’s Audit Guidelines require grants to be audited by
independent auditors in accordance with a standard provision contained in all
of its grant agreements. The Foundation’s statement of work in its contracts
with the independent accounting firms includes an audit schedule based on the
following intervals: 6 months after the first disbursement of funds to the
grantee, every 18 months thereafter, and at the completion of the grant.

However, the Foundation’s audit program did not include a complete audit
universe or the capability to produce a comprehensive annual audit schedule.
Instead, the Foundation relied on audit firms to independently develop audit-
tracking systems and schedules−a decentralized system that made it
administratively difficult for the Foundation to determine whether audits were
conducted.

As a result, the Foundation did not have adequate assurance that its audits
were being performed at specific intervals called for in its contracts with audit
firms as discussed above. For example, the audit periods covered by the
audits for four grantees (selected for review during this audit on a judgmental
rather than random basis) in El Salvador ended from 7 to 17 months after the
date of the Foundation’s first disbursements to the grantees (see table at top of
page 18). According to a recent General Accounting Office report5 the
Foundation’s internal auditor stated that 9 months from the first disbursement
is a reasonable time to receive the first audit report. Therefore, the audits
should have been performed soon after the 6-month interval following the first
disbursement.




5
 GAO/NSIAD-00-235 report on the Inter-American Foundation titled “Better Compliance
With Some Key Procedures Needed” issued on September 28, 2000.



                                                                                      17
                Table: Audits of Four Grants Awarded in El Salvador
       Grant       First          Audit            Date of           Months After
      Number   Disbursement      Period          Audit Report     First Disbursement
      ES-185     07/26/99       06/29/99-         04/04/01                 17
                                12/31/00
      ES-189     12/09/99       11/12/99-          04/19/01              12
                                12/31/00
      ES-192     12/17/99       11/12/99-          05/08/01              12
                                12/31/00
      ES-194     09/21/00       09/08/00-          07/18/01               7
                                04/30/01

     An effective audit universe database should contain such elements as the
     following:

        •   Grantee name.
        •   Country where the grant is being implemented.
        •   Grant/award number.
        •   Grant amount in U.S. dollars.
        •   Grant start/completion dates.
        •   Estimated date of the first disbursement.
        •   Grant expenditures to date.
        •   Prior audits and period covered.
        •   Estimated date when the required audit report should be submitted by
            the independent accounting firm.
        •   Actual audit completion date.
        •   Date audit report received and reviewed.
        •   Any reason(s) why the expected audit was not conducted as planned.

     From the automated database, the Foundation should be able to prepare its
     annual audit schedule and determine if audits are completed when required.

            Recommendation No. 1: We recommend that the Inter-
            American Foundation establish a complete audit universe
            database and use the database to develop a centralized
            annual audit schedule to make sure that audits are
            conducted in a timely manner.


     The Foundation Needs to Formalize Procedures
     for Audit Recommendation Follow-Up

     Although the Foundation had implemented most requirements outlined in
     OMB Circular A-50 for audit recommendation follow-up, it had not
     established written policies and procedures to document its process because



18
the internal auditor had not had time to do so before he resigned from the
Foundation. As a result, the Foundation has not taken adequate steps to
ensure that an audit recommendation follow-up process has been
institutionalized and will be continued by the next manager of its external
audit program. Also, the Foundation does not have reasonable assurance that
the weaknesses identified in audit recommendations were corrected, that
unallowable expenditures were recovered, or that remedial action was taken in
a timely manner.

Another key element of a quality audit management system is a process for
tracking audit recommendations and ensuring that recommended corrective
actions or improvements are taken or made and that those actions achieve the
desired result. Although the Foundation had developed an audit
recommendation follow-up system that complied with most federal
requirements, it had not established formalized procedures to ensure that
Foundation employees would implement all the requirements.

Office of Management and Budget (OMB) Circular A-50 provides the policies
and procedures to be used by executive agencies when audit follow-up is
necessary with respect to audit reports issued by the Inspectors General, other
executive branch audit organizations, the General Accounting Office, and
non-federal auditors. The Circular states that agencies shall assign a high
priority to the resolution6 of audit recommendations and to corrective action.
Also, the Circular states that the systems for resolution and corrective action
must, among other requirements:

    •   Provide for the appointment of a top-level audit follow-up official.

    •   Require prompt resolution and corrective actions on all audit
        recommendations.

    •   Maintain accurate records of the status of audit reports or
        recommendations through the entire process of resolution and
        corrective action, including accounting and collection controls over
        amounts due the Government.

The Foundation’s audit and recommendation follow-up program followed
most requirements outlined in OMB Circular A-50. For example, the

6
  OMB Circular A-50 defines resolution for most audits as the point that an audit organization
and an agency’s management or contracting officials agree on the action to be taken to
address reported findings and recommendations. The Inspector General Act of 1978 uses the
term management decision to describe the action of the management of an agency to develop
a plan of action to address an audit recommendation of its Inspector General. When the
Inspector General concurs with the agency’s plan of action, the mutual agreement is
equivalent to an OMB Circular A-50 “resolution.”



                                                                                           19
     Foundation appointed its internal auditor as its audit follow-up official.
     According to the internal auditor, he received, reviewed and summarized audit
     reports submitted by contracted audit firms and provided the summaries to the
     appropriate Foundation representative, who was then expected to take
     appropriate follow-up action such as a telephone call or a letter to the grantee.
     However, this process was not documented in the form of written procedures.

     In addition, the Foundation did not always maintain complete records of the
     status of audit reports or recommendations through the entire process of
     resolution and corrective action. It should be noted, however, that during the
     audit the Foundation was in the process of developing a database system to
     track audits and audit recommendations. According to Foundation
     management officials, the basic structure of such a database–the Grants
     Evaluation and Management System (GEMS)–had been developed and
     required only data input. When completed, GEMS is expected to allow
     reports on the status of audits and audit recommendations to be generated on a
     real time basis.

     Because the Foundation did not have written procedures or always maintain
     complete records on audit recommendation follow-up, it did not have
     reasonable assurance that the weaknesses identified in audit recommendations
     were corrected, that unallowable expenditures were recovered, or that
     remedial action was taken in a timely manner.

     Therefore, the Foundation needs to develop policies and procedures to ensure
     that all requirements of OMB Circular A-50 are fully implemented. In
     particular, the Foundation should be able to report to Congress, its Board of
     Directors, and USAID’s Inspector General data such as the number of audits
     conducted in the prior six−month period, the type and number of
     recommendations made, and any recommendation for which a management
     decision has not been reached or final action taken.

            Recommendation No. 2: We recommend that the Inter-
            American Foundation establish written policies and
            procedures to implement an audit recommendation
            tracking system for audits performed by accounting firms
            under contract to the Foundation and to make sure that the
            system complies with the requirements of Office of
            Management and Budget Circular A-50.




20
The Foundation Needs to Establish Procedures
for Its Audit Quality Control Program

The Foundation had not established written procedures for its quality control
program because the internal auditor had not had time to do so before he
resigned from the Foundation. As a result, the Foundation has not taken
adequate steps to ensure that a quality control program has been
institutionalized and will be continued by the next manager of its external
audit program. Without such a program, the Foundation does not have
reasonable assurance that audits will be conducted in accordance with U.S.
government auditing standards.

OMB Circular A-50 requires Inspectors General or other audit officials to
oversee the work of non-federal auditors that is performed in connection with
federal programs. The General Accounting Office’s publication entitled “An
Audit Quality Control System: Essential Elements” states that government
auditing standards require each organization performing audits to have an
appropriate quality assurance system in place. The quality assurance system
should provide reasonable assurance that the organization is following: (1)
applicable government auditing standards, and (2) appropriate policies and
procedures. Desk reviews of audit reports and quality control reviews of non-
federal work are methods for ensuring the quality of audits.

As noted previously, the Foundation had provided accounting firms written
Audit Guidelines, provided training to the auditors of these accounting firms
on U.S. generally accepted government auditing standards, and visited the
accounting firms in the field. However, we found no documentation−such as
a completed checklist, summary working papers, or task reports−as evidence
that the internal auditor had conducted quality control reviews of the auditors’
working papers. This occurred because the Foundation had not ensured that it
had written policies and procedures to address such issues as the roles and
responsibilities of those involved in the quality control process, the frequency
and timing of such reviews, and any requirements that such reviews be
documented.

OIG auditors visited three audit firms under contract to the Foundation and
conducted limited quality control reviews of the firms’ audit work. Based on
these limited reviews, and except for audits not being performed in a timely
manner as noted on page 17, the auditors concluded that these firms had
followed the Foundation’s Audit Guidelines. Although the OIG auditors
found no adverse effect from the lack of policies and procedures, because the
Foundation does not have a firm policy that audits performed under contract
to the Foundation will be subject to periodic quality control reviews, the
Foundation does not have reasonable assurance that future audits performed




                                                                              21
     by the three audit firms or audits performed by other firms will be conducted
     in accordance with U.S. government auditing standards.

     Therefore, we believe the Foundation needs to formalize its policy and
     procedures for audit quality control reviews through the issuance of policy,
     procedures, and checklists.

            Recommendation No. 3: We recommend that the Inter-
            American Foundation establish written policies and
            procedures for an audit quality control program that
            complies with the requirements of Office of Management
            and Budget Circular A-50 and General Accounting Office
            guidelines.


     Other Matters

     As discussed previously, OMB Circular A-50 provides the policies and
     procedures to be used by executive agencies when audit follow-up is necessary
     with respect to audit reports issued by the Inspectors General, other executive
     branch audit organizations, the General Accounting Office, and non-federal
     auditors. On pages 18 to 20, this report noted that the Foundation needed written
     policies and procedures for an audit recommendation tracking system for audits
     conducted by accounting firms.

     During the course of the audit, the OIG also noted that the Foundation did not
     have written procedures to track and report the status of recommendations
     conducted by the General Accounting Office or USAID’s Office of Inspector
     General. Although this observation was outside the scope of this audit, we
     believe that the Foundation should also develop written procedures for tracking
     these audit recommendations. Therefore, we are making the following
     recommendation.

            Recommendation No. 4: We recommend that the Inter-
            American Foundation establish written policies and
            procedures to implement an audit recommendation follow-
            up system in accordance with the requirements of Office of
            Management and Budget Circular A-50 for those audits
            conducted by the General Accounting Office and Office of
            Inspector General.




22
Management       In its response to our draft report, the Inter-American Foundation concurred with
Comments and     our recommendations and described the actions the Foundation has planned or
Our Evaluation   undertaken to address them. When fully implemented, these actions should
                 significantly improve the Foundation’s audit management system.

                 To address Recommendation No. 1, the Foundation has developed an audit
                 universe database and is actively inputting data into the database. The
                 Foundation expects the database to be operational within one year. Once the
                 database is established, the Foundation will produce a centralized annual audit
                 schedule to ensure that audits are conducted in a timely manner.

                 To address Recommendation No. 2, the Foundation will formulate written
                 policies and procedures within six months to implement an audit
                 recommendation tracking system for audits performed by accounting firms
                 under contract to the Foundation.

                 To address Recommendation No. 3, the Foundation will compile a written
                 inventory of the Foundation’s quality control policies and procedures within six
                 months and will ensure that these policies and procedures are consistent with the
                 General Accounting Office’s Yellow Book auditing standards. The Foundation
                 will develop a checklist to document its ongoing quality control effort.

                 To address Recommendation No. 4, the Foundation will establish written
                 policies and procedures to document its follow-up efforts on audit
                 recommendations made by the General Accounting Office and Office of
                 Inspector General.

                 Based on the actions the Foundation has planned or undertaken to address each
                 recommendation, we concluded that management decisions have been reached
                 on all four recommendations. The Foundation’s audit committee must
                 determine final action on these recommendations and we request to be notified
                 of the committee’s actions.




                                                                                                   23
     This page intentionally left blank.




24
                                                                                         Appendix I

Scope and     Scope
Methodology
              We audited the Inter-American Foundation’s systems for: (1) awarding
              grants, (2) monitoring projects and project results, and (3) auditing funds
              provided to grantees. From March to August 2002 we conducted fieldwork at
              the Foundation headquarters in Arlington, Virginia and in four countries: El
              Salvador, Mexico, Nicaragua, and Peru. The Performance Audit Division of
              the Office of Inspector General and the Regional Inspector General/San
              Salvador conducted this audit in accordance with generally accepted government
              auditing standards.

              The first audit objective was to review the process used by the Foundation to
              award nine new grants7 for funding in Mexico and Peru in fiscal year 2001.
              The second and third audit objectives were to assess the systems the
              Foundation had in place to monitor grantee projects and project results, and
              audit funds provided to 14 grantees8 judgmentally selected in El Salvador,
              Mexico, Nicaragua, and Peru. These countries were selected because they
              were among the largest dollar recipients of grants awarded by the Foundation
              as of March 2002. Grantees were selected based on geographic location, time,
              and resources needed to visit grantees and beneficiaries in the four countries.

              The scope of this audit included an examination of management controls
              associated with the selection of proposals and of the systems used to monitor
              and audit grants funded by the Foundation. The Foundation’s Office of
              Programs and Office for Evaluation and Dissemination exercise management
              controls over the selection of proposals and the system for monitoring grantee
              projects and results. These controls include a review process for selecting
              proposals for funding and monitoring actions to track or follow the progress of
              the grants awarded and the gathering of results and lessons learned. The
              internal auditor exercises management controls over the system to audit
              grants. These controls include desk reviews of audit reports and visits to
              independent audit firms contracted by the Foundation. At the time of our
              audit, the internal auditor reported to the Foundation President. However, we
              noted in footnote 4, the reorganization changed the internal auditor’s title to
              Director of Audit, Budget & Finance in August 2002.

              Management controls over contractors−the liaisons and data verifiers−were
              exercised through field visits made by the Foundation’s headquarters
              employees. Our audit scope also considered prior audit findings for the three
              areas that we reviewed.
              7
                  The Foundation awarded a total of 43 new grants in fiscal year 2001.
              8
                  The Foundation had 232 active grants as of March 5, 2002.



                                                                                              25
     Field visits in El Salvador, Mexico, Nicaragua, and Peru included meetings to
     interview U.S. embassy and USAID officials, the Foundation in−country
     contractors (data verifier and liaison, who monitor grantee results and provide
     technical assistance, respectively), grantees, beneficiaries, and audit firms.9

     Methodology

     In accomplishing these audit objectives, we held discussions with Foundation
     officials at headquarters and visited El Salvador, Mexico, Nicaragua, and
     Peru. To assess management controls related to awarding grants, we:

            •   Reviewed policies and procedures on the review of proposals received
                by the Foundation.

            •   Examined documents prepared for grants awarded to organizations in
                Mexico and Peru in fiscal year 2001.

            •   Obtained letters sent to those organizations in Mexico and Peru that
                was determined not to fit the Foundation’s funding criteria.

            •   Obtained trip reports on site visits by Foundation representatives to
                potential grantee organizations in Mexico and Peru.

            •   Obtained documentation sent to the U.S. embassies in Mexico and
                Peru that provided a detailed description of the proponent organization
                and the proposed project activities.

            •   Obtained documentation of team reviews of proposals recommended
                by Foundation representatives for funding and of internal reviews by
                Program Directors, the Vice President for Programs, the General
                Counsel and the President of the Foundation.

            •   Obtained Board of Directors and Congressional oversight committee
                notifications and grant award notifications to the U.S. ambassador in
                the beneficiary country and the beneficiary country’s ambassador in
                the United States.

     To assess management controls related to monitoring projects and project
     results and to auditing funds provided to grantees, we:

            •   Visited grantees to discuss and observe project activities, to verify
                monitoring visits by the Foundation representative and contractors
                (data verifier and liaison), and to meet with some beneficiaries.
     9
         We also visited an audit firm in Costa Rica that audits grantees in Nicaragua.



26
   •   Obtained documentation from data verifiers on project indicators.

   •   Obtained “Audit Guidelines for Use by Independent Auditors in the
       Examination of Foundation Grants” which are used by independent
       audit firms contracted by the Foundation to conduct grant audits.

   •   Examined audit clauses in selected grant agreements and contracts
       with audit firms in the four countries selected for field visits.

   •   Visited three audit firms under contract to the Foundation and
       conducted limited quality control reviews of the firms’ audit work.

The audit results placed some reliance on computer-generated data obtained
from the Foundation's automated grants evaluation and management system
(GEMS) without specific audit verification of the adequacy of general and
application controls for that system.




                                                                             27
      This page intentionally left blank.
     This page intentionally left blank.




28
                                                                                          Appendix II


Management                                           February 25, 2003
Comments

Ms. Dianne Rawl
Director
Performance Audit Division
Office of Inspector General
U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, DC 20523-8900

Dear Ms. Rawl:

Thank you for providing the Inter-American Foundation (IAF) with the January 29, 2003 revised
draft Agency for International Development Office of Inspector General (OIG) Report, “Audit of
Awarding and Monitoring of Grants by the Inter-American Foundation,” Report No. 9-IAF-03-00X-
P (the Report). I have reviewed the Report, and am pleased to see that your office was favorably
impressed by the IAF grant award and monitoring systems.

I note that in this Report, substantially more IAF auditing policies and procedures are recognized and
assessed than in the earlier draft report, dated November 7, 2002 (the draft Report). Many of these
policies and procedures were highlighted in my November 19, 2002 comments on the draft Report,
and I am pleased to see that the OIG has acknowledged these IAF efforts to implement appropriate
auditing practices.

With regard to the Report’s four Recommendations on the IAF’s auditing systems:

Recommendation No. 1: The IAF accepts this recommendation and has established an audit universe
data base. We are actively inputting data into the data base, and we expect it to be completely
operational within one year. Once the data base is established, we will produce a centralized annual
audit schedule to ensure that audits are conducted in a timely manner.

Recommendation No. 2: The IAF accepts this recommendation and will formulate such policies and
procedures within six months.

Recommendation No. 3: The IAF accepts this recommendation and will compile a written inventory
of the IAF’s auditing quality control policies and procedures within six months. The IAF will ensure
that these policies and procedures are consistent with Yellow Book auditing standards. The IAF will
develop a checklist to document our on-going quality control effort.

In fact, the IAF has taken significant measures to ensure quality in our auditing procedures, some of
which I referenced in my November 19th comments. These measures include contracting with


                                                                                                    29
highly reputable auditing firms (field auditors) in countries throughout Latin America and the
Caribbean, and distributing to those field auditors the IAF Audit Manual – prepared in three
languages – as well as the Yellow Book. Since the IAF received the draft Report, we have
significantly enhanced our quality control efforts through visits by the IAF Auditor to the field
auditors of Mexico and Brazil -- the two countries with the largest portfolios. Moreover, we have
reconstituted the IAF Audit Committee, and it is preparing a training conference for all IAF field
auditors, scheduled to take place in Miami on May 28-30, 2003. Finally, I am confident that the
IAF’s newly-created audit data base will greatly facilitate quality control.

Recommendation 4: The IAF accepts this recommendation. The IAF has followed up on all
recommendations made in previous OIG and GAO audits within established guidelines. Within six
months, the IAF will establish written policies and procedures to document our audit follow-up
efforts.



                                                                Sincerely,

                                                                    /s/

                                                                David Valenzuela
                                                                President




                                                                                         Appendix II




30
